June 25, 2021
By Electronic Filing and Electronic Mail

Andrew M. Grossman
direct dial: 202.861.1697
agrossman@bakerlaw.com

The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, NE
Washington, DC 20543
Re:

Westmoreland Mining Holdings LLC v. Environmental Protection Agency, et
al., No. 20-1778 (U.S.)

Dear Mr. Harris:
As counsel of record for Petitioner in Westmoreland Mining Holdings LLC v.
Environmental Protection Agency, et al., No. 20-1778 (U.S.), I am writing to grant
blanket consent to the filing of a brief amicus curiae with respect to certiorari by any
person or entity, provided that it is filed within the time allowed by the rules of this
Court. This consent applies without regard to the position taken or the party being
supported by the brief.
Sincerely,
/s/ Andrew M. Grossman
Andrew M. Grossman
cc:

Jacob M. Roth
Counsel for Petitioner North American Coal Corporation (by electronic mail)
Lindsay S. See
Counsel for State Petitioners (by electronic mail)
Paul M. Seby
Counsel for Petitioner State of North Dakota (by electronic mail)
Elizabeth B. Prelogar
Benjamin Carlisle
Counsel for Respondents (by electronic mail)

